Department of Homeland Security
   Ofﬁce of Inspector General

            Management of Mental Health Cases in 

                  Immigration Detention
 





OIG-11-62                                        March 2011
                                                             Office ofInspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                             Homeland
                                                             Security
                  March 28, 2011



                                         Preface

The Department of Homeland Security (DHS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses Immigration and Customs Enforcement's management of mental
health cases in immigration detention. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observatwns, and a review of
apphcable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result III more effective, efficient, and economical operations. We
express our apprecIation to all of those who contributed to the preparation of this report.

                                 C --12LO'V\~~
                                      Carlton I. Mann
                                      ASSIstant Inspector General
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2
 


Results of Review ................................................................................................................5
 


     IHSC’s Oversight as ICE’s Medical Authority Needs to Extend to All Facilities 

     Providing Health Care for ICE Detainees ......................................................................5
 

     Recommendation ...........................................................................................................6
 

     Management Comments and OIG Analysis ..................................................................7
 


     Reducing Staffing Shortages Can Improve the Mental Health Care Environment .......7
 

     Recommendation .........................................................................................................10
 

     Management Comments and OIG Analysis ................................................................10
 


     ICE Needs to Establish Staffing Models for Managing Mental Health Care Needs ...11
 

     Recommendation .........................................................................................................12
 

     Management Comments and OIG Analysis ................................................................12
 


     Space Limitations and Remote Locations May Reduce the Effectiveness of Mental 

     Health Care ..................................................................................................................12
 

     Recommendations........................................................................................................18
 

     Management Comments and OIG Analysis ................................................................18
 


     Facility Designation Should Be A Factor in Resource Allocation and Planning ........20 

     Recommendation .........................................................................................................21
 

     Management Comments and OIG Analysis ................................................................21
 


     Additional Information Can Provide Assistance in Determining Detainees’ Mental 

     Health Care Needs .......................................................................................................21
 

     Recommendations........................................................................................................24
 

     Management Comments and OIG Analysis ................................................................24
 


     ICE Needs to Designate Decision-making Responsibility for Transferring Mentally 

     Ill Detainees .................................................................................................................25
 

     Recommendations........................................................................................................28
 

     Management Comments and OIG Analysis ................................................................28
 


     Mental Health Conditions Can Hamper Legal Proceedings ........................................29
 

     Recommendations........................................................................................................31
 

     Management Comments and OIG Analysis ................................................................31
 


     Private Facilities Can Fill Critical Roles in Providing Mental Health Care for 

     Detainees with Mental Illness......................................................................................33
 

     Recommendation .........................................................................................................34
 

  Management Comments and OIG Analysis ................................................................34
 


  Evolving Clinical Practices May Offer Greater Flexibility to Support Mental Health 

  Care Needs ...................................................................................................................34 

  Recommendations........................................................................................................35
 

  Management Comments and OIG Analysis ................................................................36
 


  Electronic Medical Records Have Not Been Implemented .........................................37 

  Recommendation .........................................................................................................37 

  Management Comments and OIG Analysis ................................................................38
 


Appendices
  Appendix A:           Purpose, Scope, and Methodology.......................................................39
 

  Appendix B:           Management Comments to the Draft Report .......................................41 

  Appendix C:           Major Contributors to this Report........................................................50
 

  Appendix D:           Report Distribution ..............................................................................51
 


Abbreviations
  CBP                Customs and Border Protection 

  DHS                Department of Homeland Security 

  DOJ                Department of Justice 

  EOIR               Executive Office of Immigration Review 

  ICE                Immigration and Customs Enforcement 

  IHSC               ICE Health Service Corps 

  ODPP               Office of Detention Policy and Planning 

  OIG                Office of Inspector General 

  OPLA               Office of Principal Legal Advisor 

  PHS                Public Health Service 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                 Immigration and Customs Enforcement apprehends, detains, and
                 removes illegal aliens from the United States. Aliens in custody
                 must be provided with appropriate medical treatment and care.
                 The Health Service Corp serves as the medical authority for
                 Immigration and Customs Enforcement, and provides direct care
                 or arranges for outside health care services to detained aliens in
                 custody.

                 The Immigration and Customs Enforcement’s Health Service
                 Corps staffs only 18 of the nearly 250 detention centers nationwide
                 and has limited oversight and monitoring for mental health cases
                 across immigration detention centers. As a result, Immigration and
                 Customs Enforcement is not fully aware of all detainees with
                 mental health conditions, or the level of care being provided.

                 The Health Service Corps has experienced persistent vacancies in
                 mental health positions which have raised concerns about the
                 effectiveness of provider care. As of August 2010, vacancy rates
                 at 11 of the 18 facilities staffed with Health Service Corps
                 employees were 50% or more. In addition, facilities were not
                 always well-equipped to support the needs of detainees with
                 mental illness or located in areas with access to community mental
                 health care facilities.

                 Immigration and Customs Enforcement needs to (1) establish a
                 staffing plan that aligns staffing with the facilities’ mental health
                 caseload, (2) make appropriate space available to provide needed
                 treatment, (3) develop a classification system for facilities to
                 determine the level of care that can be provided, (4) make timely
                 requests for mental health information, (5) clarify decision-making
                 authorities for detainee transfer decisions, (6) establish protocols
                 for handling mental health information, (7) release guidance on
                 custodians, and (8) develop field guidance for using specialty
                 facilities.

                 We are making 20 recommendations to improve the management
                 of mental health cases.


              Management of Mental Health Cases in Immigration Detention

                                       Page 1
Background
                          United States Immigration and Customs Enforcement (ICE)
                          apprehends, detains, and removes individuals who are in the
                          United States unlawfully. ICE places non-U.S. citizens who are
                          apprehended and determined to need custodial supervision in
                          detention facilities maintained by its Office of Enforcement and
                          Removal Operations. The Supreme Court has held that, consistent
                          with the Eighth Amendment and common law principles, the
                          government is obligated to provide medical care to those whom it
                          is incarcerating. 1 Pursuant to ICE detention standards,
                          Enforcement and Removal Operations is responsible for providing
                          detainees with medical care.

                          Mental Health Care in Immigration Detention

                          Within Enforcement and Removal Operations, the ICE Health
                          Service Corps (IHSC) serves as ICE’s medical authority, and
                          oversees, provides, and arranges for detained aliens’ medical care,
                          including mental health care. IHSC has diagnosed and treated
                          detained aliens for a range of mental health conditions including
                          schizophrenia, substance abuse, adjustment disorder, and post­
                          traumatic stress disorder. Some detainees are seriously impaired
                          by mental illness and may be unable to coexist with others in
                          detention or participate in immigration proceedings. In addition,
                          detainees may present a risk of harm to others or themselves,
                          including suicide. 2

                          To address mental health cases, IHSC staff includes psychiatrists,
                          psychologists, and social workers at the following types of ICE
                          detention facilities:

                                   Service Processing Centers - owned by DHS ICE and
                                   staffed with federal and contract employees,

                                   Contract Detention Facilities - owned and operated by
                                   private companies under contract with ICE, and

                                   Intergovernmental Service Agreement - State and local jails
                                   operating under an agreement with ICE.


1
  Estelle v. Gamble, 429 U.S. 97, 103-104 (U.S. 1976) (holding that deliberate indifference to serious
medical needs of prisoners constitutes the "unnecessary and wanton infliction of pain," proscribed by the
Eighth Amendment) (citing Gregg v. Georgia, 428 U.S. 153, 173 (U.S. 1976)).
2
  Since 2004, 17 detainees in ICE custody have committed suicide. There has not been a detainee suicide
in IHSC care for the past 2 years.
                       Management of Mental Health Cases in Immigration Detention

                                                  Page 2
                           IHSC provides medical and mental health care at 18 of the
                           approximately 250 ICE detention facilities nationwide, including
                           all six service processing centers, and 12 of the contract detention
                           facilities and facilities operating under an intergovernmental
                           service agreement.

                           Of the 821 IHSC employees, 266 are United States Public Health
                           Service (PHS) officers, with the remaining 555 personnel being
                           civilian or contracted employees. 3 Figure 1 shows 18 facilities
                           where IHSC has a clinical presence, 4 facilities where IHSC only
                           screens detainees, and IHSC’s headquarters location in
                           Washington, D.C.

                   Figure 1: IHSC Headquarters and Field Locations




                   Source: IHSC, http://www.icehealth.org/Facilities/LocationsMap.shtm

                           The contract detention facilities and facilities operating under an
                           intergovernmental service agreement functioning without IHSC
                           personnel employ their own staff or contract with local
                           practitioners to provide medical services, including mental health
                           care. ICE also uses local hospitals and other facilities to treat
                           detainees whose mental health needs exceed a detention facility’s
                           capability. As of August 2010, contract detention facilities, service
                           processing centers, and facilities operating under an
                           intergovernmental service agreement were using the services of 52
                           off-site mental health facilities.



3
    A 2007 Memorandum of Understanding provides for detailed PHS officers to serve within DHS.
                        Management of Mental Health Cases in Immigration Detention

                                                 Page 3
   Mental health services from an outside provider require IHSC
   approval. Field personnel submit treatment authorization requests
   to ensure that outside visits are approved and cleared for payment.
   While field-based clinical directors may approve most treatment
   authorization requests, those for mental health treatment require
   headquarters’ review and approval. In emergency situations,
   treatment authorization requests may be submitted after treatment
   has been provided. IHSC has developed a new referral processing
   and approval system called the Medical Payment and
   Authorization Request System to replace the treatment
   authorization request process. This system is intended to
   decentralize processing and approval of treatment requests
   submitted by providers when treatment is deemed medically
   necessary.

   Mental Health Care and Immigration Detention Reform

   In October 2009, ICE’s Office of Detention Policy and Planning
   (ODPP) completed a report on immigration detention that included
   recommendations to guide reform efforts as follows:

           Develop a single, integrated medical system across the
           national network of detention facilities,

           Classify detainees based on medical need and assign them
           to appropriately staffed and equipped facilities, and

           Discontinue the use of segregation cells for medical
           isolation or observation.

   Since October 2009, ICE has implemented the following reforms:

           Hired and placed detention service managers in field
           positions,

           Piloted a medical classification system for detained aliens,

           Revised detention standards, known as Performance Based
           National Detention Standards 2010, and

           Established a medical advisory group.

   In June 2010, ICE’s Office of Professional Responsibility also
   completed a congressionally mandated review of the detention
   healthcare system. The review issued additional recommendations
   to improve detainee healthcare throughout ICE as follows:

Management of Mental Health Cases in Immigration Detention

                         Page 4
                                      Station medical personnel in detention facilities to help
                                      provide additional oversight,

                                      Establish and disseminate guidance about medical
                                      personnel staffing models for various types of facilities
                                      housing ICE detainees,

                                      Enforce the requirement to name a clinical or
                                      administrative authority at every facility, and

                                      Develop a standardized medical transfer form and include a
                                      medical standard that specifies what information should be
                                      included in the medical transfer form.

Results of Review
           IHSC’s Oversight as ICE’s Medical Authority Needs to Extend to
           All Facilities Providing Health Care for ICE Detainees
                    IHSC is designated as the medical authority for ICE. In this role, IHSC
                    provides primary health care for detainees housed in IHSC-staffed
                    detention centers and oversees the financial authorization and payment for
                    off-site specialty and emergency care for detainees in ICE custody.
                    However, we observed inconsistencies in the way IHSC oversight was
                    exercised between IHSC-staffed facilities and those facilities without an
                    IHSC presence on site. Specifically, oversight exercised by IHSC at non-
                    IHSC staffed facilities does not provide ICE with a means for (1)
                    maintaining statistics on the overall population of detainees with mental
                    health conditions, (2) updating the mental health status of detainees and
                    related treatments, and (3) maintaining an awareness of the level of care
                    that each facility can provide.

                    In the absence of such information, ICE’s ability to monitor the overall
                    status of ICE detainees with mental illnesses is hindered. Maintaining a
                    broad-based knowledge of information regarding detainees’ mental health
                    status would assist ICE in making well-informed decisions regarding (1)
                    the allocation of health care resources needed for an appropriate level of
                    care, and (2) the ability of each facility to provide specific care.

                    IHSC has clinical staff at 18 of the approximately 250 immigration
                    detention centers nationwide, though an October 2009 ICE report, entitled
                    Immigration Detention Overview and Recommendations, showed that
                    IHSC-staffed facilities detain approximately half of the ICE detainees. 4

4
    http://www.ice.gov/doclib/about/offices/odpp/pdf/ice-detention-rpt.pdf
                         Management of Mental Health Cases in Immigration Detention

                                                    Page 5
IHSC is able to monitor and track the condition and treatment provided to
detainees with mental disabilities at IHSC-staffed detention facilities. In
August 2010, ICE reported 1,496 mental health patients in IHSC-staffed
detention centers. However, ICE was unable to provide comparable
information for mentally ill detainees in non-IHSC staffed facilities since
such data is not tracked or maintained.

IHSC headquarters has limited tools for monitoring mental health care in
facilities that are not staffed with IHSC personnel. These include:

     Treatment authorization requests - IHSC headquarters reviews and
     approves requests for mental health care; however, these only alert
     the division to cases requiring treatment outside of a detention
     facility and are largely used to approve and ensure payment.

     ICE’s Health Benefits Package - Revised in FY 2010, ICE’s benefits
     package outlines what the agency will pay for outside care as
     required and provides direction to all outside facilities that must
     provide mental health care to detainees.

     Significant Illness Reports - Reports filed with ICE through IHSC
     summarize critical cases of mental illness that tend to be acute or
     require hospitalization. These depend, however, on the ability of
     field personnel to recognize a problem and bring it to headquarters’
     attention for discussion and monitoring.

These sources provide IHSC with information on cases of mental illness
which tend to be acute and require hospitalization. However, IHSC does
not receive any information regarding detainee cases that may not require
intensive treatment. Therefore, the mental health conditions and care of
ICE’s detainee population, as a whole, cannot be fully monitored by
IHSC. These types of information could be used by ICE as part of efforts
to ensure an appropriate level of oversight for mentally ill detainees.

In FY 2010, ICE’s Office of Professional Responsibility’s report on
medical care in detention recommended that ICE station medical
personnel in detention facilities to help provide additional oversight. To
ensure an appropriate level of oversight, ICE needs to define the specific
responsibilities that will allow IHSC to increase oversight of mental health
cases.

Recommendation
       We recommend that Immigration and Customs Enforcement:



    Management of Mental Health Cases in Immigration Detention

                             Page 6
            Recommendation #1: Establish and implement IHSC’s role in
            monitoring and providing oversight to all ICE detention facilities.
            At a minimum, this should include IHSC’s responsibility for
            monitoring and tracking the mental health condition of ICE’s
            detained population.


     Management Comments and OIG Analysis
            We evaluated ICE’s written comments and have made changes to the
            report where we deem appropriate. A summary of ICE’s written
            responses to our recommendations and our analysis of the responses
            follow each recommendation. A copy of ICE’s response, in its
            entirety, appears in Appendix B.

            ICE Response: ICE concurred with Recommendation #1.

            Division of Immigration Health Services, now called ICE Health
            Service Corps (IHSC), has already established new Field Case
            Manager positions to provide medically-related consultation to
            each of the 24 Enforcement and Removal Operations Field Office
            Directors and monitor care provided to detainees in non-IHSC
            staffed facilities, with particular emphasis on mental health issues.
            As of December 1, 2010, IHSC has assigned Field Case Managers
            to 12 Enforcement and Removal Operations Field Offices to
            provide critical support and is recruiting to fill the remaining 12
            Field Offices in FY 2011.

            OIG Analysis: This recommendation is resolved and open
            pending our receipt of documentation showing the specific duties
            and responsibilities of the newly established Field Case Manager
            positions, and ICE’s completion of the recruitment and assignment
            of the 24 Field Case Managers.


Reducing Staffing Shortages Can Improve the Mental Health
Care Environment
            IHSC employs psychiatrists, psychologists, and social workers
            who work together to diagnose mental illnesses, prescribe
            medications, provide counseling, and evaluate mental health
            patients’ progress. However, because of ICE’s inability to attract
            and retain clinicians, there is less assurance that ICE has sufficient
            staff to provide an appropriate level of mental health care.


         Management of Mental Health Cases in Immigration Detention

                                  Page 7
       Vacancies in Mental Health Positions

       Since 2008, vacancies for mental health positions across IHSC-
       staffed facilities have ranged from 21% to 47%. In January 2008,
       IHSC had 36 mental health positions, of which 17, or 47%, were
       vacant. IHSC has added mental health positions over the past two
       years, for a total of 63 positions in August 2010, of which 26
       positions, or 41%, were vacant.

Figure 2: IHSC Mental Health Position Vacancy Rates




Source: IHSC Staffing Rosters

       IHSC officials from headquarters and field locations cited staffing
       shortages as a critical challenge. In addition, health service
       administrators and clinical directors throughout IHSC expressed
       the need for more mental health providers.

       As of August 2010, vacancy rates at 11 of the 18 facilities staffed
       with IHSC employees were 50% or higher. For specific positions
       across IHSC, vacancy rates were 46% for psychiatrists, with 6 of
       13 positions unfilled; 37% for psychologists, with 7 of 19 positions
       unfilled; and 42% of social workers, with 13 of 31 positions
       unfilled.

       IHSC administrators and clinicians expressed concern about the
       effectiveness of provider care with the extent of existing vacancies.
       Vacant positions burden not only existing mental health staff, but
       also non-mental health staff who assume duties that may extend
       beyond their areas of expertise. For example, IHSC officials said
       that facilities without a psychiatrist must rely on other medical
       professionals qualified to prescribe any medications, even though
       they may not be knowledgeable of specific psychiatric
    Management of Mental Health Cases in Immigration Detention

                                Page 8
                         medications. According to some IHSC staff, insufficient mental
                         health staff increases their reliance on community providers who
                         can offer limited time to accommodate mental health patients.

                         Vacant IHSC clinical director positions also result in clinical
                         oversight and administrative duties being performed by existing
                         staff, or a clinical director located at another facility. As a medical
                         doctor, the clinical director supervises clinical operations and staff,
                         including mental health providers, and prescribes medications. As
                         of August 2010, nine of 18 clinical director positions were vacant.
                         Three health service administrators noted that the clinical director
                         position at each of their facilities has been vacant for several years.

                         Barriers to Minimizing Staffing Shortages

                         IHSC officials cited several contributing factors for staffing
                         challenges, including a competitive job market for mental health
                         providers, remote location of facilities, administrative processing
                         delays, and low employee morale.

                               Competition for mental health providers - High demand in
                               public and private sectors for mental health professionals
                               affects IHSC’s ability to recruit and retain providers.

                               Non-competitive salaries - IHSC’s inability to offer
                               competitive salaries, especially for psychiatrist positions,
                               was cited as a reason for hiring difficulties.

                               Undesirable locations - Some detention facilities are located
                               in rural and remote locations where candidates do not want
                               to relocate.

                               Administrative delays - An often lengthy security clearance
                               process at ICE discourages candidates from waiting for an
                               offer, especially when applicants receive other offers.
                               Several PHS officers said that required credit checks
                               eliminate qualified candidates, which mostly impacts
                               facilities in remote, rural locations, with fewer medical
                               professionals.

                         Also, the recently-enacted Patient Protection and Affordable Care
                         Act eliminated the limit on commissioned corps officers, 5 and
                         deemed all PHS Reserve Corps officers on active duty to be
                         commissioned officers of the Regular Corps, which expanded the

5
 Section 5209, Patient Protection and Affordable Care Act, Public Law 111-148, March 23, 2010. Section
5209 is codified at 42 U.S.C. § 238f note.
                      Management of Mental Health Cases in Immigration Detention

                                                Page 9
                           ranks of active duty PHS officers. 6 Officers of the Regular Corps
                           must be appointed to their positions by the President with the
                           advice and consent of the U.S. Senate. 7 However, these
                           appointments have not occurred to date; therefore, new PHS
                           officers cannot be hired.

                                 Low morale - Staff expressed dedication to the IHSC
                                 mission, but cited low morale when asked about staffing
                                 problems. Some officers said that IHSC’s reputation has
                                 suffered due to constantly changing or absent leadership, and
                                 a lack of direction. Since 2007, IHSC had nine acting or
                                 permanent directors.

                           Because of staffing shortages and persistent vacancies, IHSC has
                           continued to recruit and hire to address staffing concerns. IHSC
                           has also temporarily transferred mental health staff to facilities
                           needing mental health providers, and named a new acting director.
                           IHSC had also used the Assignment Incentive Pay Program, which
                           paid a premium to certain types of providers accepting positions,
                           including mental health providers, at specific IHSC locations that
                           have difficulties attracting staff. While the plan was successful for
                           those who applied and qualified, only $236,000 of the allotted
                           $1,053,000 was spent, and the program has been discontinued.

                  Recommendation
                           We recommend that Immigration and Customs Enforcement:

                           Recommendation #2: Prioritize hiring a permanent director and
                           mental health staff. This should include maximizing the use of
                           available hiring incentives, and minimizing processing delays to
                           the extent practicable.


                  Management Comments and OIG Analysis
                           ICE Response: ICE concurred with Recommendation #2.

                           Interviews for a permanent Senior Executive Service Director have
                           been completed and final selection is pending. However, remote
                           geographic locations impact IHSC's ability to recruit or retain
                           qualified staff at certain facilities, particularly psychiatrists. To

6
  Section 5210, Patient Protection and Affordable Care Act. This particular provision is codified at 42
U.S.C. § 203(b).
7
  42 U.S.C. 203(a)(3).
                       Management of Mental Health Cases in Immigration Detention

                                                  Page 10
                           mitigate this problem, IHSC is exploring the use of Title 38
                           authority and partnering with the Veteran's Administration to help
                           fill vacancies.

                           OIG Analysis: This recommendation is resolved and open
                           pending (1) the selection and hiring of a permanent director, and
                           (2) the outcome of IHSC’s use of available hiring tools including
                           efforts to determine whether Title 38 and partnering with the
                           Veterans Administration can be used to fill mental health staffing
                           vacancies.


          ICE Needs to Establish Staffing Models for Managing Mental
          Health Care Needs
                           In our 2008 report, entitled ICE Policies Related to Detainee
                           Deaths and the Oversight of Immigration Detention Facilities, we
                           stressed the importance of aligning clinical staffing with ICE
                           strategic planning for detention management. 8 However, ICE has
                           not established an allocation plan that aligns staffing with the
                           detention facilities’ mental health case load. Without such staffing
                           allocation plan, ICE cannot be assured of each facility’s ability to
                           provide detainees with an acceptable level of health care.

                           Mental health staff at facilities also commented that the standard
                           for staffing plans should be aligned with the workload of each
                           facility, the number of patients requiring medical services, and
                           available bed space at each facility. While ICE does not have a
                           standard definition for a mental health team, one clinical director
                           identified a psychiatrist, psychologist, and social worker as key
                           members of such team.

                           Of the 18 IHSC-staffed facilities, 11 facilities were allocated
                           positions for a minimum of one psychiatrist, psychologist, and
                           social worker. However, the remaining seven facilities were not
                           allocated at least one position for each of these disciplines. Three
                           of the seven facilities were allocated one social worker position,
                           even though two of these facilities housed 76 and 59 mentally ill
                           detainees, respectively.

                           However, there are facilities that receive ICE detainees with
                           chronic mental illnesses who may require hospitalization or forced
                           medication. For these facilities, we identified variances in mental


8
    http://www.dhs.gov/xoig/assets/mgmtrpts/OIG 08-52 Jun08.pdf .
                        Management of Mental Health Cases in Immigration Detention

                                                 Page 11
           health providers to mentally ill detainees that ranged from a ratio
           of 1:8 to a ratio of 1:53.

           Demands of mental health patients can vary significantly and
           staffing ratios cannot solely determine an optimum staffing level.
           IHSC administrators and clinicians said that even a small number
           of detainees with mental illnesses can demand significant time and
           attention for treatment based on the type of mental illness. This
           emphasizes the need for a staffing allocation plan aligned with
           mental health caseloads, and a baseline number of providers to
           determine the necessary mental health care for detainees.

     Recommendation
           We recommend that Immigration and Customs Enforcement:

           Recommendation #3: Establish and implement a system that
           aligns staffing levels at each facility with their respective mental
           health caseload.


     Management Comments and OIG Analysis
           ICE Response: ICE concurred with Recommendation #3.

           ICE has already begun to analyze appropriate staffing internally,
           and implemented a system to align staffing levels through
           submission and action of the priority staffing plan. Once analysis
           and approval of the staffing plan are complete, IHSC will fully
           implement realignment based on each facilities mental health
           caseload. Full implementation of the priority staffing plan is
           currently subject to available funding.

           OIG Analysis: This recommendation is resolved and open
           pending completion of the analysis, approval, and implementation
           of the staffing plan.


Space Limitations and Remote Locations May Reduce the
Effectiveness of Mental Health Care
           Detainees with acute mental illness or suicidal tendencies may
           require treatment that includes on-going clinical attention,
           separation from other detainees, and either periodic or constant
           observation. To assist with these needs, short stay units provide an
           environment for continuous health care, as well as medical
        Management of Mental Health Cases in Immigration Detention

                                 Page 12
   isolation for mentally ill detainees who are at risk for violent or
   suicidal behavior.

   Psychiatric hospitals and private practitioners can provide services
   for detainees requiring specialized care and treatment for mental
   illnesses. However, in certain locations, the access and availability
   of these services is limited. Without appropriate treatment areas,
   mental health care providers have limited options for providing
   care to detainees with mental illnesses.

   Structure of Detention Facilities Needs to Facilitate Mental
   Health Care Treatment

   ICE detention facilities should include appropriate areas for
   treating detainees with specific mental health needs. Of the eight
   ICE detention facilities we visited, four facilities did not have short
   stay units, but were treating between 46 and 226 detainees with
   mental health diagnoses, including those who needed to be
   separated from the other detainees.

   The short stay units that we observed contained two to four beds.
   One facility had ten beds in four short stay units for mentally ill
   detainees. However, this situation does not accommodate a
   detainee whose condition requires isolation from other detainees.

   Three facilities that we visited had short stay units with single cell
   rooms, although in most cases, isolation rooms were primarily
   used for tuberculosis patients. One of these facilities had isolation
   rooms not dedicated to tuberculosis cases, and one facility had a
   padded room.

   At facilities with short stay units, IHSC staff expressed concern
   regarding the volume of mental health cases in comparison to the
   capacity of the medical units, and a shortage of short stay units and
   padded rooms. One health service administrator said the medical
   unit had a short stay unit, but only one of three medical cells was
   available since two were used for storage and a medical laboratory.
   In addition, four facilities that we visited did not have single cell
   rooms or padded cells that could be used for mental health
   observations or suicide watches.

    Use of Transitional Pods: One facility that did not have a short
    stay unit used smaller pods housing several detainees for some
    mental health patients. The pods helped mentally ill detainees
    needing supervision transition from isolation to general
    population.

Management of Mental Health Cases in Immigration Detention

                         Page 13
   Based on telephone interviews with officials at 11 IHSC-staffed
   facilities, three of the facilities did not have short stay units even
   though they housed several detainees with mental health conditions
   that required separation, isolation, or in some cases periodic
   hospitalization. Four of the eleven facilities did not have single
   cells, and six did not have padded rooms to accommodate mental
   health care needs.

   IHSC providers expressed concern that the absence of a
   therapeutic, non-punitive environment interferes with mental
   health care, and limits their ability to stabilize detainees with
   serious mental illnesses. Without areas to care for detainees
   requiring suicide watch rooms or other special needs, clinicians
   must provide treatment in environments that may not foster
   improvements in mental health conditions. Treatments under such
   conditions have resulted in cases where symptoms have been
   exacerbated.

   Segregation Cells Used for Mentally Ill and Suicide Watch

   In some facilities that do not have short stay units or sufficient
   medical isolation rooms, special management units were used to
   house detainees with serious mental illnesses.

    Special Management Units, commonly known as segregation,
    are typically used as a disciplinary measure, or for
    administrative purposes such as protective custody. They are
    called special housing units in some facilities.

   ICE’s Performance Based National Detention Standards allow
   placement in administrative segregation for detainees who require
   separation for medical reasons. However, an October 2009 ODPP
   report noted that segregation is “not conducive to recovery” and
   recommended that ICE stop using segregation cells for medical
   isolation or observation.

   Four of the eight ICE detention facilities we visited did not have
   short stay units and used special management units for housing
   mentally ill detainees, and conducting suicide watch and mental
   health observations. One additional facility that had a short stay
   unit also housed detainees on suicide watch in special management
   units. Those with limited or no short stay unit space used the
   special management units for housing mentally ill detainees
   needing separation or for overflow once short stay units were full.


Management of Mental Health Cases in Immigration Detention

                         Page 14
   Advocacy groups and researchers have related concerns that
   segregation can exacerbate mental illnesses. In addition, mental
   health care providers at ICE facilities we visited provided the
   following comments regarding special management units:

           Segregation is never an appropriate setting for long-term
           placement of mentally ill detainees.

           Segregation often exacerbates mental illness and is
           counterproductive to the goal of stabilizing a detainee.

           Segregation is not a good environment for those with
           mental health concerns because detainees reported
           increased levels of depression and anxiety when held in a
           short stay unit.

           It is not possible to make segregation into a therapeutic
           setting in which a mentally ill detainee’s condition would
           improve.

           Special management units should only be used at the
           detainee’s request, or for short periods when these units are
           the only option.

           A detainee’s placement in special management units for
           more than 24 hours warrants an immediate evaluation by
           the facility’s psychiatric consultant, who should consider
           hospitalizing the detainee.

   In addition to potential negative effects on a detainees’ mental
   health, special management units may pose several additional
   challenges.

           They are often separate from the facility’s medical unit and
           are not immediately accessible to medical staff.

           Some do not have a continuous medical presence, though
           medical providers told us that they visit the segregation
           units at least daily to check the status of mentally ill
           detainees.

           They are often controlled by correctional staff rather than
           medical personnel, which creates additional layers of
           security required for disciplinary cases, but not needed for
           mental health cases. In one facility, for example, a health
           service administrator said procedures for opening cells of a
Management of Mental Health Cases in Immigration Detention

                         Page 15
           special management unit can delay care to a detainee
           needing treatment.

   Detention Facility Locations Limit Access to Community 

   Mental Health Care 


   ICE’s Performance Based National Detention Standards require
   facilities to identify and make available mental health crisis
   intervention services for detainees experiencing acute mental
   health episodes. Facilities must directly or contractually provide
   detainees with necessary hospitalization in the local community.
   While ICE can easily access community mental health care in
   some locations, other facilities with significant mental health cases
   do not have access to community mental health providers.

   Off-site consultants provide mental health services to detainees
   whose needs cannot be addressed by mental health providers at
   detention facilities. In addition, hospitalization may be required
   when mentally ill detainees’ symptoms require in-patient care.

   Among the eight facilities that we visited, community hospitals for
   ICE detainees were readily available to four facilities, with one
   facility having access to four nearby hospitals. However, the
   remaining four facilities that did not have short stay units relied on
   segregation areas for serious mental health cases. Detainees at
   these facilities also had limited access to off-site consultants and
   mental health hospitals. Three of the facilities were located 40 to
   60 miles from the nearest hospital, where sending detainees to the
   emergency room was the only option available.

   Access to community mental health providers is generally more
   available in urban areas. Alternatively, as an Enforcement and
   Removal Operations manager acknowledged, detention facilities
   with limited access to community providers tend to be located in
   remote areas with minimal local infrastructure.

   IHSC staff from ICE facilities with access to mental health
   resources attributed some of their success for stabilizing seriously
   ill mental health patients to their proximity to community
   resources. An IHSC clinician at one of these facilities said that
   access to four community hospitals enables the facility to provide
   care to patients requiring more specialized treatment. Another
   IHSC clinician said that each detention facility should have a
   process for accessing a psychiatric hospital, adding that if there is
   no ability to move psychotic patients to a hospital setting, it is not
   feasible to give them proper treatment options.

Management of Mental Health Cases in Immigration Detention

                         Page 16
   Relationships with Community Providers Can be Strengthened

   Several detention facilities’ access to community providers was
   limited by local hospitals’ reluctance to accept immigration
   detainees. At one facility, an official said that a local hospital had
   responded by saying that hospitals are mostly for county inmates,
   not ICE detainees. Several officials said that hospitals were not
   willing to take ICE detainees, one of them adding that the hospital
   voiced concerns about detainees appearing in the waiting area in
   shackles and prison uniforms and scaring or intimidating other
   patients. The official added that when IHSC sends mental health
   patients to local hospitals, the hospitals send them right back.

   Late payments for services may risk relationships with community
   providers. IHSC staff and community providers noted that
   payments for medical services by ICE are sometimes late. Staff
   that we spoke with at one facility anticipated that ICE payments
   would be late. Two IHSC officials expressed concern that late
   payments will result in future services being refused.

   An IHSC manager told us that ICE’s contracts with local providers
   have expired and were not renewed. ICE may not require contracts
   with every mental health service provider, and facilities have
   cultivated good relationships in some areas. However, contracts
   can help to ensure continued service over extended periods of time,
   and establish mutually agreeable terms under which ICE patients
   will be admitted to hospitals.

   Conclusion

   The availability of treatment areas within detention facilities, along
   with accessible community providers, is significant in the well­
   being of detainees with mental health conditions. ICE needs to
   minimize the risk of reversing any improvements in detainees’
   mental health capacity, which could result in prolonged detention.




Management of Mental Health Cases in Immigration Detention 


                         Page 17 

Recommendations
      We recommend that Immigration and Customs Enforcement:

      Recommendation #4: Place detainees with mental illnesses in
      facilities that have necessary space and resources available to
      provide needed services. At a minimum, such facilities should
      maintain appropriate areas for specialized treatment, and be
      accessible to community providers.

      Recommendation #5: Establish time limits for holding mentally
      ill detainees in segregation outside of medical units, and identify
      recourses for detention facilities when segregated detainees are
      approaching set time limits.

      Recommendation #6: Establish procedures for timely evaluating
      and transferring detainees requiring separation or isolation for
      mental health conditions, but who are in facilities that cannot
      accommodate such needs.

      Recommendation #7: Identify detention facility sites with
      minimal or no community resources, and develop IHSC mental
      health resources as needed to ensure the availability of proper care.


Management Comments and OIG Analysis
      ICE Response: ICE concurred with Recommendation #4.

      IHSC and Enforcement and Removal Operations Field Offices
      have conducted an initial analysis of IHSC and non-IHSC staffed
      facilities to identify detainees with active acute or sub-acute
      diagnosis. Once this analysis has been finalized, IHSC and
      Enforcement and Removal Operations Headquarters Field
      Operations will provide recommendations regarding appropriate
      placement based on availability of care. Prospectively, IHSC and
      Enforcement and Removal Operations Headquarters Field
      Operations are currently developing a process to identify and
      report detainees with acute or sub-acute diagnosis. This report and
      tracking system will focus on identifying the patient's mental
      health needs and placing them in a facility consistent with
      providing the best possible care based on their mental health
      diagnosis and clinical needs. IHSC has taken steps to increase
      access to available mental health resources and facilities
      throughout the country.


   Management of Mental Health Cases in Immigration Detention

                            Page 18
   OIG Analysis: This recommendation is resolved and open
   pending completion of (1) the analysis of all facilities to identify
   detainees with active acute or sub-acute diagnosis, and (2) the
   implementation of a process to identify, track, and appropriately
   place detainees with a mental health diagnosis.

   ICE Response: ICE concurred with Recommendation #5.

   Detainees with mental health issues housed in segregation units
   outside of medical units are reassessed by appropriate health care
   personnel on a daily basis. Any modifications in treatment and
   conditions of confinement are made at that time, if appropriate.
   IHSC is completing the Medical Classification System, which will
   also address this recommendation regarding identifying and
   placing detainees based on medical and mental health need and
   diagnosis. The Medical Classification System is comprised of two
   components: identification of detainee health care needs and
   identification of health care resources available in detention
   facilities, to include immediate outside health care surrounding the
   facility. Detainee placement will be contingent upon detainee
   needs and resources available at or near the facility. ICE will
   review industry standards and consult health care authorities to
   establish time limits for holding mentally ill detainees in
   segregation.

   OIG Analysis: This recommendation is resolved and open
   pending (1) IHSC’s implementation of the Medical Classification
   System, and (2) the establishment of time limits for holding
   mentally ill detainees in segregation outside of medical units.

   ICE Response: ICE concurred with Recommendation #6.

   IHSC will establish procedures to identify detainees with mental
   health conditions requiring transfer to appropriate ICE facilities or
   to contracted care facilities. Enforcement and Removal Operations
   will consider IHSC's recommendation and, coupled with
   conditions of confinement, make a decision on the best location to
   house the detainee to provide appropriate care. ICE will
   incorporate this requirement in the new Medical Classification
   System, which will identify the type of services available at each
   of ICE's facilities.

   OIG Analysis: This recommendation is resolved and open
   pending implementation of the Medical Classification System that
   includes this requirement.


Management of Mental Health Cases in Immigration Detention

                         Page 19
            ICE Response: ICE concurred with Recommendation #7.

            Development and implementation of the aforementioned Medical
            Classification System will address this recommendation.

            OIG Analysis: This recommendation is resolved and open
            pending ICE’s implementation of the Medical Classification
            System.


Facility Designations Should Be a Factor in Resource Allocation
and Planning
     Developing a classification system for immigration detention centers
     based on mental health care capabilities can provide a more effective
     means of allocating resources and placing detainees in facilities that can
     offer an appropriate level of mental health care. At the time of our
     fieldwork, ICE had introduced a pilot classification system for detainees’
     health status, but not for detention facilities.

     Formally designating the capability of IHSC-staffed facilities to treat
     detainees with mental illnesses allows management to prioritize staffing
     and mental health resources. However, a process to ensure that detainees
     are placed in facilities with resources commensurate with their assessed
     needs has not been established.

     An example provided by IHSC officials to convey the need for facility
     designations was that more challenging mental health cases were being
     transferred to two specific facilities. However, these facilities were not
     officially designated as mental health care facilities.

     Some Enforcement and Removal Operations staff at these facilities
     recognized increases in mental health case transfers, but were uncertain as
     to why their facility had been designated to receive these types of cases.
     Detention and removal officers and medical personnel expressed a desire
     for a clearer understanding of how facilities were viewed with respect to
     handling mentally ill detainees, especially those requiring more focused
     attention.

     Facility designations would allow ICE to align the capability of each
     facility with the detainees’ health care needs, and provide required levels
     of care. As a result, ICE would benefit from a well-managed health care
     system for detainees requiring various levels of mental health care
     treatment.



         Management of Mental Health Cases in Immigration Detention

                                  Page 20
     Recommendation
            We recommend that Immigration and Customs Enforcement:

            Recommendation #8: Establish a classification system for
            detention facilities that takes into consideration the facilities’
            ability to handle detainees with varying mental health needs.


     Management Comments and OIG Analysis
            ICE Response: ICE concurred with Recommendation #8.

            Current procedures match the capabilities of IHSC-staffed
            facilities with patient needs. The Medical Classification System,
            as explained in response to recommendation 5, is in the final stages
            of development, and when implemented, will further expand this
            capability to include available intergovernmental services
            agreement resources.

            OIG Analysis: This recommendation is resolved and open
            pending implementation of the Medical Classification System.


Additional Information Can Provide Assistance in Determining
Detainees’ Mental Health Care Needs
     Mentally ill aliens enter ICE custody through either direct apprehension by
     ICE or Customs and Border Protection (CBP), or ICE programs that
     identify those already held in local, state, and federal jails and prisons.
     Enforcement and Removal Operations determines whether and where to
     detain an individual and transfers detainees among its detention facilities.
     Medical personnel use intake screenings to identify incoming detainees’
     mental health concerns and make referrals to mental health providers.
     However, information that could provide assistance with the intake and
     transfers of mentally ill detainees is not always obtained.

            Intake Process Should Expand Data Collection Requirements

            ICE policy advises field officers to use discretion when
            apprehending aliens with a severe medical or psychiatric condition
            that would make detention problematic and removal highly
            unlikely. As aliens enter ICE custody, the agency identifies or
            documents any mental health concerns as follows:


         Management of Mental Health Cases in Immigration Detention

                                  Page 21
       An apprehending officer or agent documents information
       regarding an alien’s mental state, usually on Form I-213,
       Record of Deportable Alien/Inadmissible Alien, used to record
       an encounter with an alien.

       Mental health records from a non-ICE detention center or
       institution may be considered, if available, and

       Intake screenings are conducted by medical staff at the ICE
       detention center.

   Officers’ notes on Form I-213 can identify a detainee’s potential
   mental health condition and medication. However, this is an
   informal method for identifying detainees with mental health
   concerns because mentally ill individuals can be difficult or
   impossible to identify, and apprehending officers may not be
   trained to recognize signs of mental illness. Only 10 of 85 A-files
   we reviewed for detainees with mental illnesses had apprehending
   officers’ notes related to their mental health observations.

   Mental health records from a non-ICE detention center or
   institution are more reliable than Form I-213. However, medical
   staff in ICE detention facilities cannot always obtain these records
   for several reasons:

       Records are not requested. In some cases, ICE does not
       obtain the detainee’s medical records before he or she arrives
       because ICE officers do not ask for health information. One
       medical administrator said that apprehension officers could be
       better trained and do not always understand how the
       apprehension of mentally ill detainees affects the agency.

       Requests for records are refused. After detainees arrive,
       clinical staff at an ICE facility request medical records.
       However, local jails or prisons transferring individuals into
       ICE custody refuse to release medical information due to
       privacy concerns.

   ICE cannot demand mental health records from non-ICE facilities.
   However, ICE staff noted that efforts by some health service
   administrators and clinical directors to develop relationships with
   local facilities have helped encourage them to submit medical
   information for incoming detainees.

   The absence of a detainees’ prior mental health information can
   result in an impediment to continuity of care. In addition, mental

Management of Mental Health Cases in Immigration Detention

                         Page 22
   health providers must be more dependent on a detainee’s
   willingness and ability to accurately report on their health
   condition and related medications for use in making health care
   decisions.

   Additional Data Collection Could Facilitate Mental Health
   Diagnosis and Treatment

   ICE’s October 2009 ODPP report stated that ICE screening
   methods did not lend themselves to early identification and
   intervention for detainees with mental health concerns. The types
   of information collected during mental health screening varied
   between non-IHSC facilities and IHSC-staffed facilities. The
   following represents examples of information obtained to facilitate
   mental health care treatment.

         Personal Information: Intake screening at one detention
         facility we visited considers detainees’ answers to questions
         about their personal circumstances and family history in the
         context of mental health. This approach was preferred by the
         facility’s medical staff over IHSC’s form and medical staff
         re-screened detainees already screened by IHSC.

         Criminal History: Several clinicians mentioned the value
         of knowing a mentally ill detainee’s criminal history, which
         is not included on IHSC’ screening form. A questionnaire at
         a contract detention facility inquired about a detainee’s
         history of violence and criminal history. We were told that
         the questions pertaining to criminal history are included to
         maintain American Correctional Association accreditation.
         According to health care providers, including questions
         about a detainee’s criminal history and violent behavior can
         help in some cases to tend to identify mental illness and
         inform providers’ diagnosis. While ICE gathers detainees’
         criminal charges, it is not included in their medical files.

   Conclusion

   As ICE apprehends more aliens from local and state jails and
   prisons, its ability to obtain mental health information from non-
   ICE facilities becomes increasingly important. Ensuring that
   apprehending officers make appropriate and timely requests for
   mental health records from local and state institutions can increase
   the likelihood that facilities will comply. Also, by routinely
   collecting data from a broader spectrum of alternate sources,


Management of Mental Health Cases in Immigration Detention

                         Page 23
      clinicians could prepare a more complete assessment of detainees’
      mental health conditions.

Recommendations
      We recommend that Immigration and Customs Enforcement:

      Recommendation #9: Direct field offices to request mental health
      information for incarcerated aliens before they arrive in detention,
      and establish a requirement for sending the information to medical
      personnel before detainees arrive in ICE detention.

      Recommendation #10: Identify additional data that could be
      collected as part of the mental health screening process that would
      assist in determining the health history and treatment needed for
      incoming detainees with mental illnesses.


Management Comments and OIG Analysis
      ICE Response: ICE concurred with Recommendation #9 to the
      extent operationally viable.

      ICE believes that a few issues must be considered prior to
      implementing this recommendation. As noted in the Draft Report,
      some jails and prisons will not release medical or mental health
      information prior to transfer of aliens into ICE custody. ICE lacks
      the authority to demand such information from non ICE-owned
      facilities. However, IHSC liaison may bridge this gap. Also, there
      are large numbers of aliens transferred into ICE custody where
      there is insufficient time to access the mental health information
      prior to the alien entering ICE custody.

      ICE will create a policy requiring ICE officers to request
      medical/mental information before they arrive in ICE detention.
      This policy will contain the following protocols:

              In cases where medical reports indicate significant mental
              health issues, Field Office Directors will be required to
              notify Headquarters IHSC prior to accepting the alien into
              ICE custody.

              Within 24 hours of receiving requests, IHSC Field Case
              Managers will provide the Field Office Director with (1)
              assessments of whether ICE has the resources to properly


   Management of Mental Health Cases in Immigration Detention

                            Page 24
                    house aliens, and (2) the facility aliens should be detained
                    based on clinical need.

                    The Field Office Directors will be reminded to exercise
                    prosecutorial discretion and cancel immigration detainers
                    or elevate cases to Enforcement and Removal Operations
                    Headquarters when necessary, and as appropriate.

            OIG Analysis: This recommendation is resolved and open
            pending the establishment and implementation of new policy
            protocols for field offices to request mental health information for
            incarcerated detainee, and send to medical personnel before
            detainees arrive in detention.

            ICE Response: ICE concurred with Recommendation #10.

            IHSC is in the process of revising IHSC Form 795A, Intake
            Screening Form, to include additional information that would
            assist in determining the health history and treatment needed for
            incoming detainees with mental illnesses. The form is currently
            being routed through the approval process, and should be fully
            implemented soon.

            OIG Analysis: This recommendation is resolved and open
            pending implementation of the new intake form.


ICE Needs to Designate Decision-making Responsibility for
Transferring Mentally Ill Detainees
     ICE field offices maintain responsibility for coordinating detainee
     transfers. Coordination and interaction among medical personnel,
     detention facility staff, attorneys, and ICE headquarters affects the
     detention facilities’ ability to transfer a detainee for mental health reasons.
     Clarification regarding the responsibility for approving mental health
     transfers and identifying facilities to send detainees is needed among ICE
     and IHSC personnel at headquarters and in the field.

     Specific responsibility for making the final decision regarding transfers
     and placement has not been assigned. As a result, significant delays have
     occurred in transfers for mentally ill detainees, as decisions are being
     made in the absence of a process or a designated decision-making official.

     At many facilities operating under an intergovernmental services
     agreement, ICE officers do not have local IHSC staff to help evaluate
     mental health cases, and make expedient decisions regarding their
         Management of Mental Health Cases in Immigration Detention

                                  Page 25
placement. In one intergovernmental services agreement facility that we
visited, IHSC staff assigned to the facility could not assist ICE with case
management because that IHSC team was only responsible for screening,
and could not advise ICE on transfers.

The Performance Based National Detention Standards instruct field offices
to coordinate transfers, and only involve headquarters as a last resort.
Without any form of oversight or intermediary, an Enforcement and
Removal Operations field office can deny any request from another
Enforcement and Removal Operations field office to transfer a mentally ill
detainee. ICE staff reported that Enforcement and Removal Operations
field offices were not always willing to receive mental health transfers
since the detention, removal, or release of mentally ill detainees can be
very complicated and difficult to manage.

IHSC officials explained that transfers for medical or mental health
reasons can take weeks or months to coordinate with medical and ICE
staff to find available space. In more serious cases, IHSC administrators
and clinicians said that ICE risks detainees deteriorating when the
detainees are not transferred to facilities that are able to provide needed
medical services. Also, when the time frame for arranging the transfer is
extensive, detainees who are cleared and ready for transfer may
decompensate, and require treatment at a local emergency room.

To facilitate the timely transfer of detainees, ICE should designate a
central authority with primary responsibility for detainee transfer
decisions. Such actions would encourage a more cohesive relationship
among field offices regarding the transfer of detainees. In addition, it
would also minimize delays in the transfer process that could otherwise
result in diminished mental health care for detainees.

In FY 2010, ICE’s Office of Professional Responsibility recommended
that ICE station medical personnel in detention facilities to help provide
additional oversight. Such a move would support IHSC’s position as
ICE’s medical authority and help it acquire greater oversight for individual
mental health cases. Also, an ICE official suggested centralizing authority
for making decisions regarding detainee transfers, to limit field offices
ability to refuse to accept a detainee based on the facility requesting the
transfer.

       Information Sharing for Internal Transfers Can Improve

       Effective information sharing among ICE facilities helps ensure
       continuity of care. ICE’s Performance Based National Detention
       Standards prescribe notification and coordination procedures
       among facilities transferring and accepting ICE detainees. The

    Management of Mental Health Cases in Immigration Detention

                             Page 26
   transferring facility is responsible for preparing the detainee and
   required documents, which include a medical transfer summary
   and records. ICE must notify the receiving facility sufficiently in
   advance, which should include the medical staff. Since the
   medical staff must determine and provide for any associated
   medical needs, notification is integral to allow the medical staff to
   research the illness to ensure proper treatment.

   The detention standards require providing advanced notice of a
   mentally ill detainee’s arrival and ensuring his or her mental health
   records are sent.

       Advanced Notice - ICE Detention Standards require medical
       providers to be notified in advance of incoming detainees with
       health conditions to ensure the facility has the appropriate
       resources available. One IHSC official said that before moving
       a detainee, IHSC headquarters has teleconferences with health
       service administrators, field office directors, and physicians.
       However, ICE personnel at seven sites told us that they receive
       minimal advanced notice on detainee transfers. Three other
       HSAs stated that they were usually notified.

       Mental health providers said that advanced notice would be
       helpful in developing a continuity of care plan, coordinating
       local providers, and preparing the detainee for travel by
       maintaining medication levels.

       Medical Records - ICE Detention Standards require medical
       summaries and official health records during transfers. In
       addition to receiving verbal notification regarding a detainee
       transfer, ICE policy recognizes the importance of having
       medical records or transfer summaries. Detainees transferred
       between IHSC-staffed facilities must have medical records and
       a completed transfer summary, which includes information
       about the detainee’s current mental status and medication
       instructions. However, detainees transferring from facilities
       operating under an intergovernmental service agreement are
       only required to have a transfer summary.

       An IHSC official said receiving medical records would be cost-
       effective because the receiving facility could avoid duplicate
       testing.

       IHSC personnel said that a major challenge is maintaining
       continuity of care for detainees entering a facility without
       information. An IHSC official acknowledged problems which

Management of Mental Health Cases in Immigration Detention

                         Page 27
          occur when a detainee changes facilities, and the division was
          working on improving the process.

      Conclusion

      ICE needs to ensure that its medical authority has involvement in
      field decisions throughout all phases of the detention process. This
      will strengthen IHSC medical authority, and facilitate case
      management and information exchange.

Recommendations
      We recommend that Immigration and Customs Enforcement:

      Recommendation #11: Designate a central authority for directing
      transfers for mentally ill detainees.

      Recommendation #12: Assign IHSC case managers in field
      positions to provide direct oversight and advice to ICE field and
      sub-offices, and expedite transfers of mentally ill detainees.


Management Comments and OIG Analysis
      ICE Response: ICE concurred with Recommendation #11.

      ICE indicates that Enforcement and Removal Operations is the
      central authority for directing the transfer of all detainees in ICE
      custody, and IHSC Social Services Branch provides
      recommendations for the transfer of mentally ill detainees.

      OIG Analysis: This recommendation is resolved and open
      pending our receipt of documentation designating Enforcement
      and Removal Operations as the central authority for directing the
      transfer of all detainees in ICE custody.

      ICE Response: ICE concurred with Recommendation #12.

      ICE has partially implemented this recommendation through the
      assignment of Field Case Managers to 12 of the 24 Enforcement
      and Removal Operations Field Offices. It is anticipated that full
      staffing of Enforcement and Removal Operations Field Offices
      will be completed during FY 2011.

      OIG Analysis: This recommendation is resolved and open
      pending our receipt of documentation showing the specific duties
   Management of Mental Health Cases in Immigration Detention

                            Page 28
            and responsibilities of the newly established Field Case Manager
            positions, and ICE’s completion of the recruitment and assignment
            of the 24 Field Case Managers.


Mental Health Conditions Can Hamper Legal Proceedings
     The Executive Office of Immigration Review (EOIR), within the
     Department of Justice, administers the U.S. immigration court system.
     EOIR adjudicates civil immigration cases through proceedings to
     determine immigrants’ removability from the country. As appropriate,
     some immigrants in detention are placed in removal proceedings in
     immigration court where ICE attorneys will prosecute them if they are
     unlawfully present. Certain detainees may be released during immigration
     proceedings as appropriate by law. However, with some exceptions, ICE
     must release or remove detainees once proceedings have ended.

     A detainee’s mental illnesses can hinder the government’s ability to
     resolve an immigration case when the detainee cannot participate in
     proceedings because of his or her condition.

            ICE Needs Protocols For Relaying Mental Health Information via
            Alien Files

            ICE attorneys cited an ethical duty to acknowledge to the court any
            suspected or identified mental health condition that would affect
            mental competency. However, a process does not exist for
            formally identifying such cases. ICE attorneys said that a
            respondent’s mental health problems are usually discovered either
            through their behavior in court or in information received from
            Enforcement and Removal Operations in documents, in the Alien
            registration files, or in conversation with an Enforcement and
            Removal Operations officer.

            Documentation of a mental illness offers a reliable and descriptive
            source; however, such information is not always available in a
            mentally ill respondent’s Alien registration file. In the 85 Alien
            registration files that we reviewed, 44 contained evidence of a
            detainee’s mental health condition. Types of documentation
            included records of the alien’s statements to apprehending officers,
            medical records from previous jails or prisons, and records of
            hospitalization. Some files included no information even though
            the respondent had been diagnosed with a mental health condition
            while in ICE detention. There was no consistency in the
            information included in the Alien registration files. In addition,
            psychiatric alerts, specifically IHSC Form 834, were used rarely.

         Management of Mental Health Cases in Immigration Detention

                                  Page 29
                           ICE needs to ensure that mental health information that attorneys
                           should be privy to is included in the Alien registration files, and
                           that attorneys are notified accordingly. Protocols that consider
                           privacy concerns should be taken into account when developing
                           information sharing procedures for detainees’ mental health
                           information.

                           ICE Needs to Provide Guidance on Custodians for Incompetent
                           Respondents

                           Regulations allow qualified individuals to appear in immigration
                           court on behalf of respondents when the respondent is unable to be
                           present due to mental incompetency. 9 Regulations also permit the
                           respondent’s custodian to appear when another qualified individual
                           cannot be found or fails or refuses to attend. 10 When Enforcement
                           and Removal Operations and immigration judges cannot find
                           family, friends, or pro bono attorneys to appear with the
                           respondent, a custodian is asked to appear in court with the
                           respondent. In these cases, however, there is no guidance or
                           finalized direction from ICE to its attorneys or officers on how to
                           use custodians. ICE’s Office of Principal Legal Advisor (OPLA)
                           is currently working to provide such guidance.

                           Attorneys we interviewed in five of the seven regions we visited
                           reported that they have used custodians for mentally incompetent
                           respondents. Among the regions that have used custodians, the
                           role has been assumed by ICE field office directors, assistant field
                           office directors, or an Enforcement and Removal Operations
                           officer, or less commonly a warden or a correctional officer
                           representing the warden. However, attorneys across all seven
                           regions expressed misgivings about the practice, and cited a
                           potential conflict of interest in having Enforcement and Removal
                           Operations personnel participate in removal proceedings.

                           Regulations restrict judges from accepting an admission of
                           removability from officers at a respondent’s detention facility. 11
                           According to ICE attorneys, when officers act as custodians for
                           mentally incompetent respondents, the officers are instructed to
                           deny charges on behalf of the respondent. In these cases, ICE
                           attorneys must establish alienage to the judge’s satisfaction based
                           on documentary evidence.

9
  8 CFR § 1240.4. These include an attorney, legal representative, legal guardian, near relative, or friend 

who was served with a copy of the notice to appear. 

10
   8 CFR § 1240.4. 

11
   8 CFR § 1240.10(c). 

                        Management of Mental Health Cases in Immigration Detention

                                                   Page 30
      ICE attorneys and staff need clarification regarding how to handle
      custodial issues. Officers serving as custodians should be guided
      by a formal policy and structure for handling these cases.

Recommendations
      We recommend that Immigration and Customs Enforcement:

      Recommendation #13: Establish protocols for retaining and
      sharing mental health information in Alien registration files. At a
      minimum, protocols should include: requirements for documenting
      detainees’ mental health status to be used by Enforcement and
      Removal Operations officers and ICE attorneys; and, guidance for
      ensuring detainees’ privacy rights.

      Recommendation #14: Publish guidance on eligible custodians.

      Recommendation #15: Publish internal procedures for handling
      cases where custodians must be used for mentally incompetent
      detainees.


Management Comments and OIG Analysis
      ICE Response: ICE concurred with Recommendation #13.

      ICE will determine what medical and mental health information
      can be placed in Alien registration files that do not violate Health
      Insurance Portability and Accountability Act guidelines.

      ICE notes that generally, privacy considerations limit, and in some
      cases, prohibit, the retention of medical information in Alien
      registration files. Medical information may, however, be
      introduced into the immigration court record. More specifically,
      either the alien or their counsel may introduce this information into
      the court record for a variety of reasons. ICE counsel may also
      introduce medical information into the record to enable the
      immigration judge to make a legal finding as to the alien's
      competency to participate in immigration proceedings. Of note,
      however, the alien's medical information is not required for an
      immigration judge to make such a determination. Only after that
      medical information has been introduced into the court's record,
      may that same information be retained in the Alien registration
      file.


   Management of Mental Health Cases in Immigration Detention

                            Page 31
   ICE acknowledged that our report has not drawn a clear distinction
   between legal and medical determinations, which is an important
   consideration when discussing matters involving aliens with
   mental health issues. A person who has a mental illness or
   disability is not necessarily legally incompetent to participate in
   immigration proceedings. Regardless of the circumstances leading
   to a finding that an alien is mentally incompetent, the legal
   determination is made by an Immigration Judge based on an
   assessment of the facts and circumstances of each case; it is not a
   medical determination. Consequently, in the absence of other
   credible relevant information, if an unrepresented alien has a
   mental health illness, but nevertheless appears to understand and
   respond to questions asked by the immigration judge, the judge can
   find the alien to be mentally competent for the purpose of removal
   proceedings.

   OIG Analysis: This recommendation will remain unresolved and
   open pending ICE’s decision on whether to establish protocols for
   retaining and sharing mental health information in Alien
   registration files.

   ICE Response: ICE concurred with Recommendation #14.

   ICE's OPLA is considering whether to issue guidance addressing
   the issue of aliens who are or may be mentally incompetent,
   unrepresented and in removal proceedings. Such guidance may
   include a discussion of eligibility and how a government attorney
   should handle custodial appearances before the immigration court.

   OIG Analysis: This recommendation will remain unresolved and
   open pending OPLA’s decision on whether to issue guidance
   addressing the issue of aliens who are or may be mentally
   incompetent, unrepresented, and in removal proceedings.

   ICE Response: ICE concurred with Recommendation #15.

   OPLA is considering whether to issue guidance addressing aliens
   who are or may be mentally incompetent, unrepresented and in
   removal proceedings. Such guidance may include a discussion of
   how a government attorney should handle custodial appearances
   before the immigration court.

   OIG Analysis: This recommendation will remain unresolved and
   open pending OPLA’s decision to issue guidance addressing aliens
   who are or may be mentally incompetent, unrepresented, and in
   removal proceedings.

Management of Mental Health Cases in Immigration Detention

                         Page 32
        Private Facilities Can Fill Critical Roles in Providing Mental
        Health Care for Detainees with Mental Illness
                 ICE faces major challenges in managing detainees with mental health
                 concerns who are unable to be released to the community while continuing
                 through immigration proceedings, removed to their country of origin, or
                 released into the community when ICE cannot effect removal.

                 These cases place ICE in a difficult position since ICE cannot hold
                 detainees indefinitely. 12 However, their release might not be practicable
                 while options for alternatives to detention are limited. ICE has
                 encountered difficulties in accommodating acute mental health patients, in
                 part, because no dedicated mental health facility exists within its detention
                 network. Most of ICE’s detention facilities are not equipped to handle
                 detainees with persistent and acute mental illnesses.

                 To address cases that require attention beyond those services available
                 through ICE or local providers, ICE has relied on a privately-owned
                 detention healthcare facility. The facility is a valuable resource for ICE
                 since it is the only nationally available site that is capable of treating long-
                 term mentally ill and acutely psychotic detainees.

                 IHSC decides which detainees to transfer to this facility. However,
                 guidelines which outline the criteria for detainees that should be sent to
                 this facility and a process for transferring detainees have not been
                 established. According to ICE officials, it can take from several weeks to
                 a few months to arrange a detainee’s transfer to the facility, and how
                 detainees are approved or denied placement is unclear.

                 IHSC officials said that ICE only uses this specialty facility for
                 exceptionally difficult mental health and chronically ill medical detainees
                 due to cost considerations. Some IHSC administrators commented that a
                 detainee with a chronic mental health condition, who is unable to be
                 among other detainees and cannot be deported or released to the
                 community, is a candidate for such a transfer. According to other ICE and
                 IHSC employees, when IHSC receives a request for transfer and
                 information on detainees’ mental health diagnoses, it tries to place them at
                 a less costly facility before considering the specialty facility.

                 Transfers out of this facility can also be problematic. Since this specialty
                 facility has a reputation for treating detainees with the most serious cases
                 of mental illness, it is difficult to return the detainee to their former ICE

12
   See, for example, Zadvydas v. Davis, 533 U.S. 678, 690, 699, 701 (2001) (holding that once removal is
no longer reasonably foreseeable, continued detention is not authorized by the post-removal period
detention statute; the U.S. may hold aliens only for a period “reasonably necessary” to secure removal; and
a statute permitting indefinite detention of an alien would raise a “serious constitutional problem”).
                       Management of Mental Health Cases in Immigration Detention

                                                  Page 33
      facility when they have undergone treatment and received medical
      clearance.

      Enforcement and Removal Operations personnel commented that some
      ICE facilities do not accept returning detainees because of facilities’
      inability to sustain mental health treatment. ICE officers also said that
      Enforcement and Removal Operations field offices may be reluctant to put
      a challenging mental health case back on its docket. These cases are
      demanding since a majority of detainees who are sent to this specialty
      facility are under a post final order of removal and are difficult to deport.

             Conclusion

             Since ICE field offices often face limited options for community
             placement or state-run mental health facilities, mentally ill
             detainees can potentially remain longer in detention. More
             proactive use of private facilities could help alleviate the prolonged
             detention because of more effective mental health care.

      Recommendation
             We recommend that Immigration and Customs Enforcement:

             Recommendation #16: Develop and implement guidance that
             outlines the process and criteria for using specialty facilities.


      Management Comments and OIG Analysis
             ICE Response: ICE concurred with Recommendation #16.

             ICE will develop and implement guidance that outlines the process
             and criteria for using specialty facilities.

             OIG Analysis: This recommendation is resolved and open
             pending implementation of guidance that outlines the process and
             criteria for using specialty facilities.


Evolving Clinical Practices May Offer Greater Flexibility to
Support Mental Health Care Needs
      IHSC managers and field personnel have implemented several approaches
      to supplement mental health care as follows:


          Management of Mental Health Cases in Immigration Detention

                                   Page 34
      Mental Health Nurses: IHSC designated a psychiatric mental
      health nurse position at one of its 18 detention facilities. A
      psychiatric mental health nurse administers psychiatric medication;
      communicates with mentally ill patients about their medication and
      participation in recreation activities; and helps to manage acutely
      psychotic or aggressive detainees. However, at three facilities we
      visited, nurses who were not trained in psychiatric mental health
      were assigned to perform these duties. A clinical director said that
      the needs of mental health patients require non-psychiatric nurses
      to extend beyond their capabilities. Staff at several IHSC facilities
      said psychiatric mental health nurses are needed as their
      specialized education and experience in mental health care adds
      much value.

      Tele-psychiatry: IHSC is using tele-psychiatry, which allows off-
      site psychiatrists to diagnose mental illnesses and prescribe
      medication after an interview via a tele-video connection. While
      IHSC staff preferred on-site psychiatrists, tele-psychiatry can be
      useful in locations without easy access to a psychiatrist.

      Some facilities have a tele-psychiatry connection and a
      psychiatrist. One facility had a psychiatrist on staff, and paid for
      tele-psychiatry connections that were not used. Other facilities
      have acquired tele-psychiatry equipment without connectivity.

      IHSC officials believe that current staffing shortages make tele­
      psychiatry a viable alternative for diagnosing and treating mental
      illness. However, IHSC must establish and implement a process to
      ensure the efficient and economic use of tele-psychiatry.

Recommendations
      We recommend that Immigration and Customs Enforcement:

      Recommendation #17: Include the use of psychiatric-mental
      health nurses in formal staffing plans.

      Recommendation #18: Expand the use of tele-psychiatry to those
      facilities located in areas with limited access to psychiatrists.

      Recommendation #19: Establish procedures to ensure that tele­
      psychiatry is used efficiently. At a minimum, this should include a
      review of current tele-psychiatry connections, equipment, and any
      overlaps with existing mental health services.



   Management of Mental Health Cases in Immigration Detention

                            Page 35
Management Comments and OIG Analysis
      ICE Response: ICE concurred with Recommendation #17.

      To enhance the effectiveness of the Mental Health Program within
      IHSC-staffed medical facilities, senior management and
      psychiatric subject matter experts are developing an organization-
      wide training program to prepare registered nurses with the
      training and skills to address the specific mental health needs of
      the detainees. Development of the training program and
      coordination with external programs will be completed by the end
      of calendar year 2011.

      ICE requests that OIG consider this recommendation resolved and
      open pending implementation of the staffing and training plan.

      OIG Analysis: This recommendation is resolved and open
      pending the development and implementation of a nurse’s training
      program to address specific mental health needs of the detained
      population.

      ICE Response: ICE concurred with Recommendation #18.

      IHSC has established a position, and hired a Tele-Medicine Branch
      Chief, who is currently evaluating and expanding this capability.

      ICE requests that OIG consider this recommendation resolved and
      open pending completion of the evaluation and expansion plan by
      the Tele-Medicine Branch Chief.

      OIG Analysis: This recommendation will remain resolved and
      open pending completion of the evaluation, and our review of the
      tele-psychiatry expansion plan to facilities located in areas with
      limited access to psychiatrists.

      ICE Response: ICE concurred with Recommendation #19.

      IHSC began development of the policy and procedures necessary
      for tele-psychiatry prior to the completion of this report.

      OIG Analysis: This recommendation is resolved and open
      pending completion of the policy and procedures to ensure the
      efficient use of tele-psychiatry.




   Management of Mental Health Cases in Immigration Detention

                            Page 36
           Electronic Medical Records Have Not Been Implemented
                   In our report, ICE Policies Related to Detainee Deaths and the Oversight
                   of Immigration Detention Facilities, we concluded that electronic medical
                   records would create a more efficient system for transferring and
                   accessing medical records, which would result in a rapid assessment of
                   medical needs and improve detainee safety. 13 We recommended that ICE
                   expedite the development of electronic medical records. To date, ICE
                   continues to develop an electronic medical records system scheduled for
                   implementation by 2012 or 2013. Until that time, ICE relies on a record
                   keeping system of paper and computer-based records.

                   Of the facilities we visited, five use paper records, while three employ
                   some form of electronic records. Among the IHSC-staffed facilities we
                   visited, two use electronic files while four are still using paper records.
                   ICE’s current system, CaseTrakker, is not used at all facilities. Some,
                   however, access the “Quick Print” feature of CaseTrakker, which permits
                   a facility to print a detainee’s entire medical record.

                   Implementing electronic medical records would facilitate communication
                   of medical information in detention facilities. One IHSC official said
                   accessing the file electronically would allow the receiving facility to know
                   about and prepare for the detainee entering their facility ahead of time.
                   Among the providers who were still working from paper files, some noted
                   that they were not able to locate them quickly because they were
                   circulating throughout the clinic.

                   Currently, an IHSC working group is attempting to develop and
                   implement an electronic medical records system. According to one
                   participant, the group has been working to define the system’s purpose and
                   capabilities, and identify ways to transition to a new system. We continue
                   to emphasize the importance of implementing an electronic medical
                   records system, which will help ICE address challenges in transferring and
                   accessing detainee medical records in IHSC facilities.

                   Recommendation
                           We recommend that Immigration and Customs Enforcement:

                           Recommendation #20: Expedite efforts to develop and implement
                           an electronic medical record system.




13
     http://www.dhs.gov/xoig/assets/mgmtrpts/OIG 08-52 Jun08.pdf.
                        Management of Mental Health Cases in Immigration Detention

                                                 Page 37
Management Comments and OIG Analysis
      ICE Response: ICE concurred with Recommendation #20.

      IHSC has begun developing the requirements for an electronic
      medical record system. ICE published a Request for Information
      to collect information on contractors with capabilities to develop
      the system and have held an industry day to gather additional
      information and respond to comments. The Statement of Work for
      an electronic medical record system is in the final stages of
      development. However, given the amount of work that remains to
      be done, ICE does not believe an electronic medical record system
      will be deployed by the end of calendar year 2011.

      OIG Analysis: This recommendation is resolved and open
      pending ICE’s implementation of an electronic medical record
      system.




   Management of Mental Health Cases in Immigration Detention 


                            Page 38 

Appendix A
Purpose, Scope, and Methodology

                   We conducted this review to determine ICE’s ability to manage
                   cases of detained aliens with mental health conditions. Our review
                   included three objectives:

                       Determine the utility of ICE’s guidance and training efforts
                       relating to the treatment of detainees with mental health
                       conditions,
                       Determine ICE’s ability to identify detainees with mental
                       health conditions and provide access to appropriate treatment
                       and detention settings, and
                       Determine what provisions exist to help assure detainees with
                       mental health conditions are granted expedient removal or
                       release.

                   We conducted fieldwork from February 2010 to July 2010 in
                   Washington, D.C.; Columbia, South Carolina; Miami, Florida;
                   Phoenix, Arizona; York, Pennsylvania; and Harlingen, Texas.

                   We conducted more than 120 interviews with personnel from ICE
                   headquarters, field offices, and detention facilities. Our
                   interviewees included policymakers, managers, deportation and
                   detention officers, medical personnel, attorneys, and
                   representatives of immigrant advocacy groups. We also held
                   telephonic interviews with ICE personnel, including IHSC staff at
                   11 locations throughout the country.

                   We toured eight ICE detention facilities and two private facilities
                   that care for ICE detainees with mental health conditions. The
                   facilities visited included service processing centers, contract
                   detention facilities, and facilities operating under an
                   intergovernmental service agreement, as well as facilities with
                   IHSC staff and those with other medical providers.

                   We analyzed documentary and numerical data on ICE policies
                   regarding detainees with mental health conditions. We reviewed
                   emerging data on ICE’s detention reform initiative. We conducted
                   a file review of alien and medical files of detainees with diagnosed
                   mental illnesses. Our samples were judgmentally selected to
                   acquire a range of mental health diagnoses at each site. Our
                   sample is not statistically representative of the detained population.

                   This review was conducted under the authority of the Inspector
                   General Act of 1978, as amended, and according to the Quality



                Management of Mental Health Cases in Immigration Detention

                                         Page 39
Appendix A
Purpose, Scope, and Methodology

                   Standards for Inspections issued by the President’s Council on
                   Integrity and Efficiency.




                Management of Mental Health Cases in Immigration Detention 


                                         Page 40 

Appendix B
Management Comments to the Draft Report


                                                                 OfficI! of/hI' Chh,!Fil/fl/lcitllOffiar

                                                                 lJ.S.l)erl:lrtlllcnl urllullIdlllllJ Seeurit)'
                                                                 suo IZlhStl\.'"CI.SW
                                                                 Wll$hillgton. D.C. 2U536


                                                                 u.s. Immigration
                                                                 and Customs
                                                                 Enforcement


                                        January II, 20 II


 MEMORANDUM FOR: Carlton I. Mann
                 Assistant Inspcctor General for Inspcctions
                 Oflice of Inspector ~G al

 FROM:                    Radha C. Sekar     I
                          Chief Financial Ofr~cer
                          U.S, Immigration al1d~ list

 SUBJECT:     Comments to OIG DraCt Report "Management of Mental Health Cases in
 Immigration Detention - For Official Use Only (FOUOt. dated November 17,2010


 u.s. Immigration and Customs Enforcement (ICE) appreciatcs thc opportunity to commcnt on
 the dral"t rcport.

 ICE concurs with all of the rccomlllcndations and has already begun to correct its management
 of mental health cases.

 Should you have any questions or concerns, please contact Michael May, DIG Portfolio
 Manager at (202) 732-6263 or bye-mail al MichacI.Moy@dhs.gov.

 Attachment




                                                                 www.icc.gov




                                                 Page 41 

Appendix B
Management Comments to the Draft Report


                               U.S. Immigration and Customs Enforcement

                            Responses to OIG Draft Report Recommendations

                   "Management of Menial Health Cases in Immigrafion Detention"



     Recommendation 1#1: Establish and implement DIHS's role in monitoring and providing
     oversight to all ICE detention facilities. At a minimum, this should include DIHS's
     responsibility for monitoring and tracking the mental health condition of ICE's detained
     population.
     ICE Response: ICE Concurs. D1HS is now called ICE Health Service Corps (IHSC). ICE's
     IHSC has already established new Field Case Managers (FCMs) positions to provide medically
     related consultation to each of the 24 ERO Field Office Directors (FODs) and monitor care
     provided to detainees in non·IHSC staffed facilities, with particular emphasis on mental health
     issues. As of December I, 2010, IHSC has FCMs assigned to 12 ERO Field Office locations
     providing critical support and is proceeding to recruit to fill the remaining 12 Field Offices in
     FYll.
     ICE requests that OlG consider this recommendation resolved and open, pending completion of
     the recruitment of the 24 Field Case Managers.
     Recommendation 1#2: Prioritize hiring a pennanent director and mental health staff. This should
     include maximizing the use of available hiring incentives, and minimizing processing delays to
     the extent practicable.
     ICE Response: ICE Concurs. Interviews for a permanent Senior Executive Service (SES)
     Director position have been completed and final selection is pending. However, remote
     geographic locations impact IHSC's ability to recruit or retain qualified staff at certain facilities,
     particularly psychiatrists. To mitigate this problem, IHSC is exploring the use ofTitie 38
     authority and partnering with the Veteran's Administration to help fill vacancies.
     ICE requests that OIG consider this recommendation resolved and open, pending complction of
     the recruitment of the pennanent Director.
     Recommendation 1#3: Establish and implement a system that aligns staffing levels at each
     facility with their respective mental health caseload.
     ICE Response: ICE Concurs. ICE has already begun to analyze appropriate staffing levels
     internally and has implemented a system to align staffing levels through submission and action
     of the priority staffing plan. Once analysis and approval of the staffing plan are complete, IHSC
     will fully implement realigrunent based on each facilities mental health caseload. Full
     implementation of the priority staffing plan is currently subject to available funding.
     ICE requests that OIG consider this recommendation resolved and open, pending approval of the
     staffing plan.

                                                     Page I




                      Management of Mental Health Cases in Immigration Detention 


                                                    Page 42
 

Appendix B
Management Comments to the Draft Report


                                  U.S. Immigralion and Customs Enforremenl

                               Responses 10 OIG Drafe Report Rerommendations

                      "Maaagement of Menial Health Cases in Immigration Delealioo"




        Reeommeodalionl#4: Place detainees with mental illnesses in facilities that have nec:essary
        space and rerources available to provide needed services. At a minimum, such facilities should
        maintain appropriate areas for specialized trealment, and be accessible to comnllUlity providers.
        ICE Response: ICE concurs. IHSC and ERO Field Offices have conducted an initial analysis
        of IHSC and non-IHSC statTcd facilities to identify detainees with active acute or sub-acute
        diagnosis. Once this analysis has been finalized, recommendations will be provided regarding
        appropriate placement based on availability ofcare. Prospectively, IHSC and ERO HQ Field
        Operations are currently developing a process to identify and report detainees with acute or sub-
        acute diagnosis. IHSC has taken steps to increase access to available mental health resources and
        facilities throughout the country. This report and tracking system will be focused on identifying
        the patient's mental health needs and placing them in a facility consistent with providing the best
        possible care based on their mental health diagnosis and clinical needs.
        ICE requests that OIG consider this recommendation resolved and open, pending completion of
        the analysis of all facilities, and the establishment of a process to identify, track, and placemenl
        ofdetainees with a mental health diagnosis.

        Recommendalion #5: Establish time limits for holding mentally ill detainees in segregalion
        outside of medical units, and idcnlify recourses for detention facilities when segregated detainees
        are approaching set time limits.
        ICE Response: ICE concurs. Those detainees with mental health issues housed in segregation
        units outside of medical units are reassessed by appropriate health care persolUlel on a daily
        basis. Any modifications in treatment plan and conditions ofconfinement are made at that lime,
        if appropriate. IHSC is in the final process of completing the Medical Classification System,
        which will also address this recommendation with regard to identification and placement of
        detainees based on medical and mental health need and diagnosis. The Medical Classification
        System is comprised of two components: identifieation of the health care needs of the detainee
        and identification of the health care resources that are available in the detention facility, and the
        immediate outside health care community surroWlding Ihe facility. Detainee placement will be
        contingent on the needs of the detainee and the resources available allnear the facility. ICE will
        review industry standards and consult health care authorities in an effort to establisb time limits
        for holding mentally ill detainees in segregation.
        ICE requests thaI OIG consider this recommendation resolved and open, pending deployment of
        the Medical Classification System.
                                                   Page 2




                      Management of Mental Health Cases in Immigration Detention 


                                                      Page 43
 

Appendix B
Management Comments to the Draft Report


                             U.S. Immigration and Customs Enforcement

                         Responses to OIG Draft Report Recommendations

                 "Management of Mental Health Cases in Immigration Detention"



   Recommendation #6: Establish procedures for timely evaluating and transferring detainees
   requiring separation or isolation for mental heahh conditions, but who are in facilities that cannot
   accommodate such needs.
   ICE Response: ICE concurs. IHSC will establish procedures to identify detainees with mental
   health conditions requiring transfer to appropriate ICE facilities or to contracted care facilities.
   ERO will consider JHSC's recommendation and, coupled with conditions of confinement, make
   a decision on the best location to house the detainee to provide appropriate care. ICE will
   incorporate this requirement in the new Medical Classification System, which will identify the
   type of services available at each of ICE's facilities.
   ICE requests that OlG consider this recommendation resolved and open, pending deployment of
   the Medical Classification System.

   Recommendation #7: Identify detention facility sites with minimal or no community resources,
   and develop lHSC mental health resources as needed to ensure the availability of proper care.
   ICE Response: ICE concurs. Development and implementation of the Medical Classification
   system will address this recommendation once implemented as outlined in the response to
   recommendation
   ICE requests that OlG consider this recommendation resolved and open, pending deployment of
   the Medical Classification System.

   Recommendation #8: Establish a classification system for detention facilities that takes into
   consideration the facilities' ability to handle detainees with varying mental health needs.
   ICE Response: ICE concurs. Current internal procedures match the capabilities of IHSC
   staffed facilities with patient needs. The Medical Classification System, as explained in
   Response #5, is in the final stages of development and is scheduled for implementation, and will
   further expand this capability include available resources in the lGSAs.
   ICE requests that OlG consider this recommendation resolved and open, pending deployment of
   the Medical Classification System.

   Recommendation #9: Direct field offices to request mental health infonnation for incarcerated
   aliens before they arrive in detention, and establish a requirement for sending the infonnation to
   medical personnel before detainees arrive in ICE detention.
   ICE Response: ICE concurs to the extent operationally viable. ICE believes that a few issues
   must be considered prior to implementation. As noted in the Draft Report some jails and prisons
                                               Page 3




                      Management of Mental Health Cases in Immigration Detention 


                                                 Page 44
 

Appendix B
Management Comments to the Draft Report



                              U.S. Immigration and Customs Enforcement

                          Responses to OIG Draft Report Recommendations

                  "Management of MeDtal Health Casu in Immigrafion Delention"



     will not release medical or mental health infonnation prior to the transfer of the alien into ICE
     custody. ICE is not in the position to demand such infonnation from non ICE-owned facilities.
     However, as indicated in the report, liaison by IHSC may be able bridge this gap. Also. there are
     large numbers of aliens that are transferred into ICE custody within 24 hours or less from the
     lodging of an immigration detainer against them. In such cases, there is no time to meaningfully
     access the mental health infonnation prior 10 the alien entering ICE custody.
     ICE will work to create a policy requiring ICE officers to request medicaVmental infonnation
     before they arrive in ICE detention. This policy will contain the following protocols;
        •   In cases where medical reports indicating significant mental health issues are obtained.
            the FOD will be required to notify HQ IHSC prior to accepting the alien into ICE
            custody.
        •   IHSC FCMs assigned to ERO Field Offices will provide the FOD. within 24 hour of
            receiving the request, with an assessment of whether ICE has the resources to properly
            house the alien and at what facility the alien should be detained based on clinical need.
        •   The FODs will be reminded of their ability to exercise prosecutorial discretion and cancel
            immigration detainers or elevate cases to ERO HQ, when necessary and as appropriate.
     ICE re1:Juests that 010 consider this recommendation resolved and open, pending implementation
     of the new policy protocols.

     Recommendalion NI0: Identify additional data that could be collected as part oCthe mental
     health screening process that would assist in detennining the health history and treatment needed
     for incoming detainees with mental illnesses.
     ICE RupoDse: ICE concurs. IHSC is in the process of revising the IHSC Fonn 795A. Intake
     Screening Fonn to include additional infonnation specific to the recommendation in the report.
     The fonn is cUITently being routed through the approval process and should be fully
     implemented soon.
     ICE requests that oro consider this recommendation resolved and open, pending implementation
     of the new intake fonn.

     Recommendation 1#11: Designate a central authority for directing transfers for mentally ill
     detainees.



                                                   Page 4




                     Management of Mental Health Cases in Immigration Detention 


                                                  Page 45
 

Appendix B
Management Comments to the Draft Report

                           u.s. Immigration and Customs Enforcement
                        Responses to OIG Draft Report Recommendations

               "Management of Mental Health Cases in Immigration Detention"



  ICE Response: ICE concurs. ERO is the central authority for transfer of all detainees in ICE
  custody; IHSC Social Services Branch provides recommendations for transfer of menially ill
  detainees to ERO based on medical necessity.
  ICE requests that ora consider this recommendation resolved and closed.

  Recommendation NI2: Assign IHSC case managers in field posilions 10 provide direct oversight
  and advice 10 ICE field and sub-offices, and expedite transfers of mentally ill detainees.
  ICE Response: ICE concurs. ICE has already partially implemented this recommendation
  Ihrough the assignment of FCMs to 12 ERO Field Offices, with 12 additional offices remaining
  to be staffed. It is anticipated that full staffing ofERO Field Offices will be completed during
  FY 2011.
  ICE requests that Ola consider this recommendation resolved and open, pending completion of
  the recruitment of the 24 Field Case Managers.

  RecommendatioD NI3: Establish protocols for retaining and sharing mental health information
  in A-files. At a minimum, protocols should include: requirements for documenting detainees'
  mental health status to be used by ERO officers and ICE attorneys; and, guidance for ensuring
  detainees' privacy rights.
  ICE Response: ICE concurs and will work with the appropriate entities to see what medicaV
  mental health information might be appropriate for placement in a-files that do not violate
  HIPAA guidelines. ICE notes that generally, privacy considerations limit, and in some cases,
  prohibit, the retention of medical information in an Alien registration file (A-File). Medical
  information may, however, be introduced into the immigration court record. More specifically,
  either the alien or hislher counsel may introduce this information into the court record for a
  variety of reasons, including but not limited to as part of a request for immigration benefits under
  the Immigration and Nationality Ac!. Likewise, aliens who have previously applied for and
  adjusted their immigration status to that of a lawful permanenl resident before the immigration
  court or the Department of Homeland Security could have vaccination and physical examination
  records in their A-file. ICE counsel may also introduce medical information into the record to
  enable the immigration judge to make a legal finding as to the alien's competency to participate
  in immigration proceedings. Of note, however, the alien's medical information is not required
  for an immigration judge (IJ) 10 make such a determination. Only after that medical information
  has been introduced into the coun's record, though, may that same infonnation be retained in the
  A-file.

                                                Page 5




                      Management of Mental Health Cases in Immigration Detention 


                                                 Page 46
 

Appendix B
Management Comments to the Draft Report

                            U.S. Immigration and Customs Enforcement

                        Responses to OIG Draft Report Recommendatioos

                 "Management of Menial Health CasC5 in Immigralion DelcDlion"



   It should be also noted that this report has not drawn a clear distinction between legal and
   medical detenninations, which is an important consideration when discussing maners involving
   aliens with mental health issues. A person who has a mental illness or disability is not
   necessarily legally incompetent for purposes of participating in immigration proceedings.
   Additionally, a person may be incompetent to appear in immigration proceedings for a variety of
   reasons, not just due to the presence of a mental health condition. For instance, the person may
   have a cognitive or developmental disability or a drug or alcohol addiction that substantially
   interferes with their ability to understand and respond to questions during immigration
   proceedings. Regardless of the circumstances leading to a finding that an alien is menially
   incompetent, that legal detennination must be made by an Immigration Judge, based upon their
   assessment of the facts and circumstances ofeach case; it is not a medical detennination.
   Consequently, in the absence of other credible relevant infonnation, if an unrepresented alien has
   a menial health illness, but nevertheless appears to understand and respond to questions asked by
   the immigration judge, an Immigration Judge can find the alien to be mentally competent for the
   purpose of removal proceedings.
    ICE requests that 010 consider this recommendation resolved and open, pending the decision to
    issue or not issue guidance addressing the issue of aliens who are or may be mentally
    incompetent, unrepresented, and in removal proceedings.

    Recommendation #14: Publish guidance on eligible custodians.
   ICE Response: ICE concurs. ICE's Office of the Principal Legal Advisor (OPLA) is currently
   considering whether or not, and in what fonn, to issue guidance addressing the issue of aliens
   who are or may be mentally incompetent, unrepresented and in removal proceedings. Such
   guidance may include a discussion of eligibility and how a government attorney should handle
   custodial appearances before the immigration court.
    ICE requests that 010 consider this recommendation resolved and open, pending the decision to
    issue or not issue guidance addressing the issue of aliens who are or may be menially
    incompetent, unrepresemed, and in removal proceedings.

    Recommendation #15: Publish internal procedures for handling cases where custodians must be
    used for mentally incompetent detainees.
   ICE ReJpoDse: ICE concurs. OPLA is currently considering whether or not, and in what fonn,
   to issue guidance addressing the issue of aliens who are or may be mentally incompetent,
   unrepresemed and in removal proceedings. Such guidance may include a discussion of how a
   government attomey should handle custodial appearances before the immigration court.
                                                  Page 6




                      Management of Mental Health Cases in Immigration Detention 


                                                  Page 47
 

Appendix B
Management Comments to the Draft Report

                          U.S. Immigration and Customs Enforcemenl

                      Responses 10 OIG Draft Report Recommendallons

              "Managemenl orMenlal Health Cases in Immigration Delention"



 Additionally, ICE notes that generally, privacy considerations limit, and in some cases, prohibit,
 the retention of medical information in an alien registration file (A-File). Medical information
 may, however, be introduced into the immigration court record. More specifically, either the
 alien or hislher counsel may introduce this information into the court record for a variety of
 reasons, including but not limited to as part of a request for immigration benefits under the
 Immigration and Nationality Act. Likewise, aliens who have previously applied for and
 adjusted their immigration status to that of a lawful permanent resident before the immigration
 court or the Department of Homeland Security could have vaccination and physical examination
 records in their A-file. ICE counsel may also introduce medical information into the record to
 enable the immigration judge (11) to make a legal finding as to the alien's competency to
 participate in immigration proceedings. Of note, however, the alien's medical information is not
 required for an IJ to make such a determination. Only after that medical information has been
 introduced into the court's record, though, may that same information be retained in the A-file.
 ICE requests that DIG consider this recommendation resolved and open, pending the decision to
 issue or not issue guidance addressing the issue of aliens who are or may be mentally
 incompetent, unrepresented, and in removal proceedings.

 Recommendation #116: Develop and implement guidance that outlines the process and criteria
 for using specialty facilities.
 ICE Response: ICE concurs. ICE will develop and implement guidance that outlines the
 process and criteria for using specialty facilities.
 ICE requests that DIG consider this recommendation resolved and open, pending implementation
 or guidance that outlines the process for using specialty facilities.

 Recommendation #17: Include the usc of psychiatric.mental health nurses in formal staffing
 plans.
 ICE Response: ICE concurs. In an effort to enhance the effectiveness of the Mental Health
 Program within IHSC staffed medical facilities. senior management and psychiatric subject
 matter experts are developing an organization wide training program to prepare Registered
 Nurses (RN) with the training and skill set to address the specific mental health needs of the
 detained population. Development of the training program and coordination with external
 programs will be completed by the end of calendar year 20 II.
 ICE requests that DIG consider this recommendation resolved and open, pending implementation
 of the staffing and training plan.


                                               Page 7




                      Management of Mental Health Cases in Immigration Detention 


                                                Page 48
 

Appendix B
Management Comments to the Draft Report


                          U.S. Immigration and Customs Enforcement

                       Responses 10 OIG Draft Report Recommendations

               "Management of Mental Heallh Cases in Immigralion Detention"



  Recommendation H18: Expand the use oftele-psychiatry to those facilities located in areas with
  limited access to psychiatrists.
  ICE Response: ICE concurs. IHSC has established and hired a Tele·Medicine Branch Chief,
  who is currently evaluating and expanding this capability.
  ICE requests that DIG consider this recommendation resolved and open, pending completion of
  the evaluation and expansion plan by the Tele·Medicine Branch Chief

  Recommendation #19: Establish procedures 10 ensure Ihat telepsychialry is used efficiently. At
  a minimum, this should include a review of current telepsychiatry connections, equipment, and
  any overlaps with existing mental health services.
  ICE Response: ICE concurs. IHSC began development of the policy and procedures necessary
  for telepsychiatry prior 10 the completion of this report.
  ICE requests that DIG consider this recommendation resolved and open, pending completion of
  the report and policy for telepsychiatry.

  Recommendation #20: Expedite efforts to develop and implement an EMR system.
  ICE Response: ICE concws. IHSC has already begWl the process of developing the
  requirements for an e1eclronic medical record system. We have published a Request for
  Infonnation to collect infonnation on contractors with capabilities to develop the system and
  have held an industry day to gather additional infonnation and respond to comments. The
  Statement of Work for EMR is in the final stages of development and given the amoWlt of work
  that remains to be done, ICE does not believe an EMR will be deployed by the end of calendar
  year 201 I.
  ICE requests that DIG consider this recommendation resolved and open, pending implementation
  of its electronic medical records system.




                                              Page 8




                      Management of Mental Health Cases in Immigration Detention 


                                                Page 49
 

Appendix C
Major Contributors to this Report


                    Deborah Outten-Mills, Chief Inspector
                    Andrew Schmidt, Senior Inspector
                    Morgan Ferguson, Inspector
                    Tatyana Martell, Inspector
                    Demetrius Moore, Inspector




                 Management of Mental Health Cases in Immigration Detention 


                                          Page 50 

Appendix D
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Director of ICE
                      ICE Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                 Management of Mental Health Cases in Immigration Detention 


                                          Page 51
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
